No. 20-

 

 

IN THE

Supreme Court of the United States

COMMON GROUND HEALTHCARE COOPERATIVE, ON
BEHALF OF ITSELF AND ALL OTHERS SIMILARLY SITUATED,

Petitioners,
v.

UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court Of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,578 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2021.

 

Wilson-Epes Printing Co., Inc.
